Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





 LOCAL PANDEMIC INFLUENZA 

       PREPAREDNESS:

VACCINE AND ANTIVIRAL DRUG 

DISTRIBUTION AND DISPENSING 





                    Daniel R. Levinson

                     Inspector General 


                     September 2009

                     OEI-04-08-00260

                 Office of Inspector General

                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
Δ   E X E C U T I V E                                    S U M M A R Y


                  OBJECTIVES
                  To determine the extent to which 10 selected localities:

                  1.	 addressed in their planning documents the vaccine and antiviral
                      drug distribution and dispensing components and preparedness
                      items that we identified based on Department of Health and Human
                      Services (HHS) pandemic influenza guidance,

                  2.	 conducted exercises related to vaccine and antiviral drug
                      distribution and dispensing and documented these exercises with
                      After Action Reports and Improvement Plans, and

                  3.	 collaborated with community partners to develop and exercise their
                      plans to distribute and dispense vaccines and antiviral drugs during
                      an influenza pandemic.


                  BACKGROUND
                  An influenza pandemic is a global outbreak of a highly infectious
                  influenza virus that can cause serious illness in humans. HHS
                  estimates that even a mild pandemic could cause between 2 million and
                  7.4 million deaths worldwide. In June 2009, the World Health
                  Organization raised the pandemic influenza alert level to Phase 6 and
                  declared the start of the 2009 H1N1 influenza pandemic. Although
                  scientists believe this pandemic will initially be moderate, its severity
                  over time may increase.

                  In its review of 2008 State pandemic influenza operating plans, the
                  Assistant Secretary for Preparedness and Response (ASPR) found “very
                  few gaps in State-level readiness for antiviral drug distribution.”
                  Additionally, ASPR found that States were “doing well” with respect to
                  developing State-level pandemic influenza vaccination plans. However,
                  its review did not assess local pandemic influenza vaccine and antiviral
                  drug distribution and dispensing preparedness.

                  HHS has provided guidance to States and localities to use in planning
                  for pandemic influenza vaccine and antiviral drug distribution and
                  dispensing. Based on this guidance and input from the Centers for
                  Disease Control and Prevention (CDC) and ASPR, we identified eight
                  planning areas (i.e., components) and 89 preparedness items within the
                  eight components that provided a framework for our evaluation. These


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               i
E X E C U T I V E                        S U           M M A R Y 





                   components are: Receiving & Staging, Dispensing, Tracking,
                   Vulnerable Populations, Priority Groups, Security, Storage, and
                   Transportation.

                   HHS recommends that States and localities exercise their vaccine and
                   antiviral drug distribution and dispensing plans and prepare After
                   Action Reports to document exercise objectives and recommendations.
                   They can also use Improvement Plans to assign responsibility and
                   timeframes for completing plan improvements. Finally, HHS
                   recommends that States and localities collaborate with community
                   partners to develop and exercise their pandemic influenza vaccine and
                   antiviral drug distribution and dispensing plans.
                   We examined plans for distributing and dispensing vaccines and
                   antiviral drugs during an influenza pandemic in 10 selected localities
                   and their five respective States. We also collected data about the
                   selected localities’ exercises and collaboration with community partners.


                   FINDINGS
                   Selected localities had not addressed in their planning documents
                   most of the vaccine and antiviral drug distribution and dispensing
                   components and preparedness items identified in HHS pandemic
                   influenza guidance. None of the 10 selected localities had started
                   planning in all eight distribution and dispensing components. Across
                   components, localities’ plans generally were not actionable. For
                   example, localities did not generally have valid and detailed formal
                   agreements, such as a Memorandum of Agreement, with partnering
                   agencies. Additionally, localities had generally not identified sufficient
                   sources of staff or factored absenteeism into their staffing estimates.

                   Localities varied in the extent to which they addressed the distribution
                   and dispensing components in their planning documents. Localities
                   addressed the highest percentage of preparedness items in the
                   components of Receiving & Staging and Dispensing. They addressed a
                   lower percentage of preparedness items in Tracking, Vulnerable
                   Populations, and Priority Groups. Finally, localities addressed the
                   lowest percentage of preparedness items in Security, Storage, and
                   Transportation.




 OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                ii
E X E C U T I V E                        S U           M M A R Y


                   All selected localities conducted exercises related to vaccine and
                   antiviral drug distribution and dispensing; however, most did not
                   create After Action Reports and Improvement Plans for these
                   exercises. Between September 2006 and July 2008, the 10 selected
                   localities conducted a total of 63 exercises related to distributing and
                   dispensing vaccines and antiviral drugs, ranging from 2 to 12 exercises
                   within a locality. Most of the exercises tested more than one component
                   of vaccine and antiviral drug distribution and dispensing. All selected
                   localities conducted at least one exercise to test their ability to receive
                   and stage, provide security for, and transport medications. In addition,
                   seven localities conducted exercises to test their ability to dispense
                   these medications to priority groups or store them during the
                   distribution and dispensing process. Further, localities did not create
                   both After Action Reports and Improvement Plans for 80 percent of all
                   exercises they conducted.
                   All selected localities collaborated with community partners to
                   develop and exercise their plans to distribute and dispense
                   vaccines and antiviral drugs during an influenza pandemic.
                   The 10 selected localities worked with different types of community
                   partners to develop and test their plans for distributing and dispensing
                   vaccines and antiviral drugs during an influenza pandemic. To develop
                   these plans, all localities collaborated with partners such as educational
                   institutions, emergency management agencies, and hospitals. To test
                   these plans, most localities collaborated with educational institutions,
                   law enforcement agencies, and the medical community.


                   RECOMMENDATIONS
                   While the majority of selected localities had begun planning to
                   distribute and dispense vaccines and antiviral drugs, more needs to be
                   done to improve local preparedness. Therefore, we recommend that
                   CDC work with States to:
                   Improve local pandemic influenza vaccine and antiviral drug
                   distribution and dispensing preparedness. CDC, in coordination with
                   States, could improve pandemic influenza vaccine and antiviral drug
                   distribution and dispensing preparedness at the local level by taking the
                   following actions:




 OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                iii
 E X E C U T I V E                               S U           M M A R Y

                   •	      Determine why localities appear to be in the early stages of planning
                           for pandemic influneza vaccine and antiviral drug distribution and
                           dispensing, and provide assistance to improve their preparedness.

                   •	      Prioritize the planning areas where States should focus any
                           carryover or future pandemic influenza funding to quickly improve
                           local preparedness to distribute and dispense vaccines and antiviral
                           drugs.

                   •	      Place special emphasis on ensuring localities develop actionable
                           vaccine and antiviral drug distribution and dispensing plans.
                           Specifically, plans should identify the organizations or individuals
                           responsible for carrying out specific actions and the sources that
                           would be necessary to staff distribution and dispensing positions
                           and should be supported by valid, detailed formal agreements with
                           partnering agencies.
                   Ensure that localities consistently create both After Action Reports
                   and Improvement Plans to enhance their preparedness to
                   distribute and dispense vaccines and antiviral drugs during an
                   influenza pandemic.
                   Facilitate the sharing of pandemic influenza planning and response
                   information and emerging promising practices.


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CDC agreed with two of our three recommendations. Specifically, CDC
                   agreed to work with States to encourage localities to develop After Action
                   Reports and Improvement Plans that comply with the Homeland Security
                   Exercise and Evaluation Program. CDC also agreed that States and
                   localities should use the Lessons Learned Information Sharing Web site to
                   facilitate the sharing of planning resources.

                   CDC did not indicate whether it agreed with the first recommendation, but
                   noted that it plans to use some of the Office of Inspector General’s (OIG)
                   suggested actions to address this recommendation. For example, CDC
                   acknowledged the need for States to prioritize some of the planning areas
                   OIG identified, which include receiving and storing vaccines and antiviral
                   drugs and identifying dispensing sites and staffing requirements. Finally,



OEI-04-08-00260	   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                iv
 E X E C U T I V E                              S U           M M A R Y

                  CDC agreed that localities need to develop actionable vaccine and antiviral
                  drug distribution and dispensing plans.

                  We addressed CDC’s comments in the Background and Methodology
                  sections of the report. We ask that in its final management decision, CDC
                  more clearly indicate whether it concurs with our first recommendation.




OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               v
Δ   T A B L E                      O F                  C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i




                  INTRODUCTION ........................................... 1




                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 

                              Selected localities had not addressed in their planning documents 

                              most of the vaccine and antiviral drug distribution and dispensing 

                              components and preparedness items identified in HHS pandemic 

                              influenza guidance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 


                              All selected localities conducted exercises related to vaccine and 

                              antiviral drug distribution and dispensing; however, most did not 

                              create After Action Reports and Improvement Plans for these 

                              exercises . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24 


                              All selected localities collaborated with community partners 

                              to develop and exercise their plans to distribute and dispense

                              vaccines and antiviral drugs during an influenza pandemic. . . . . 28 



                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30 

                              Agency Comments and Office of Inspector General Response . . . 32 


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34 

                              A: 	Selected States and Localities. . . . . . . . . . . . . . . . . . . . . . . . . . 34 


                              B:	 Number of Selected Localities With Planning and Supporting 

                                  Documents for the Eight Vaccine and Antiviral Drug Distribution 

                                  and Dispensing Components, by Preparedness Item . . . . . . . 35 


                              C: 	Number of Selected Localities Collaborating With Each Type of 

                                  Community Partner During Pandemic Influenza Vaccine and 

                                  Antiviral Drug Distribution and Dispensing Planning and

                                  Exercising . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43 


                              D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44 




                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49 





OEI-04-08-00260         L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                        DISPENSING
Δ   I N T R O D U C T I O N



                  OBJECTIVES
                  To determine the extent to which 10 selected localities:

                  1.	 addressed in their planning documents the vaccine and antiviral
                      drug distribution and dispensing components and preparedness
                      items that we identified based on Department of Health and Human
                      Services (HHS) pandemic influenza guidance,

                  2.	 conducted exercises related to vaccine and antiviral drug
                      distribution and dispensing and documented these exercises with
                      After Action Reports and Improvement Plans, and

                  3.	 collaborated with community partners to develop and exercise their
                      plans to distribute and dispense vaccines and antiviral drugs during
                      an influenza pandemic.


                  BACKGROUND
                  An influenza pandemic is a global outbreak of a highly infectious
                  influenza virus that can cause serious illness in humans.1 HHS
                  estimates that even a mild pandemic could cause between 2 million and
                  7.4 million deaths worldwide.2 In June 2009, the World Health
                  Organization raised the pandemic influenza alert level to Phase 6 and
                  declared the start of the 2009 H1N1 influenza pandemic. Although
                  scientists believe this pandemic will initially be moderate, its severity
                  over time may increase.
                  In February 2008, the Assistant Secretary for Preparedness and
                  Response (ASPR) within HHS asked the Office of Inspector General
                  (OIG) to evaluate State and local preparedness for an influenza
                  pandemic, particularly with regard to distributing and dispensing
                  vaccines and antiviral drugs and medical surge at the local level. ASPR
                  annually reviews State-level pandemic influenza operating plans and




                    1 HHS, “Flu Terms Defined.” Available online at http://www.pandemicflu.gov. Accessed
                  on February 17, 2009.
                    2 HHS, “Why are pandemics such dreaded events?” Available online at
                  http://www.pandemicflu.gov/faq/pandemicinfluenza/1108.html. Accessed on February 17,
                  2009.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               1
 I N T R O D          U C T                I O N 


                  identifies planning strengths and deficiencies. 3 In its review of the
                  2008 plans, ASPR found “very few gaps in State-level readiness for
                  antiviral drug distribution” and that States were “doing well” with
                  respect to developing State-level pandemic influenza vaccination plans.4
                  However, its review did not assess local pandemic influenza vaccine and
                  antiviral drug distribution and dispensing preparedness.

                  This evaluation focuses on the extent to which selected localities have
                  prepared to distribute and dispense vaccines and antiviral drugs during
                  an influenza pandemic. A second OIG evaluation focuses on the extent
                  to which selected States and localities have prepared for medical surge
                  during an influenza pandemic.5 In addition, OIG has audited
                  two States and is auditing one other to determine whether expenditures
                  used to prepare for an influenza pandemic complied with Federal
                  requirements.6
                  HHS Support of State and Local Preparedness Efforts
                  Since 2002, HHS has provided more than $8 billion to awardees
                  (hereinafter referred to as “States”) for programs to enhance their




                      3 While ASPR coordinates the review of States’ pandemic influenza operating plans, the
                  Centers for Disease Control and Prevention (CDC) reviews the sections related to vaccine
                  and antiviral drug distribution and dispensing.
                      4 Assessment of States’ Operating Plans to Combat Pandemic Influenza: Report to
                  Homeland Security Council, January 2009. Available online at
                  http://www.pandemicflu.gov/plan/states/state_assessment.pdf. Accessed on April 23, 2009.
                      5 OIG, “State and Local Pandemic Influenza Preparedness: Medical Surge,”

                      OEI-02-08-00210.
                      6 OIG, “Review of Vermont’s Pandemic Influenza Expenditures for the Period August 31,
                  2005, Through June 30, 2008,” A-01-08-01500, June 25, 2009. OIG, “Review of Washington
                  State’s Pandemic Influenza Expenditures for the Period August 31, 2005, Through June 30,
                  2008,” A-09-08-01006, August 21, 2009. OIG is also auditing pandemic influenza
                  expenditures in Georgia.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               2
   I N T R O D            U C T                I O N 


                  emergency preparedness for large-scale public health emergencies.7 8
                  HHS has distributed these funds primarily through cooperative
                  agreements under programs such as the PHEP, which is administered
                  by the CDC.

                  Beginning in 2005, Congress appropriated supplemental funding
                  specifically for pandemic influenza preparedness. Through the existing
                  PHEP cooperative agreements, CDC awarded $500 million in pandemic
                  influenza funding in three phases:9 10
                  • In Phase I (August 31, 2005, through August 30, 2006), States were to
                    identify unmet needs and develop and exercise a pandemic influenza
                    preparedness plan and an antiviral drug distribution plan.

                  • In Phase II (August 31, 2006, through August 30, 2007), States were
                    to complete and submit to CDC a work plan and progress reports and
                    develop a pandemic influenza exercise schedule.



                    7 In a 2007 press release, HHS described providing more than $7 billion in funding since
                  2002 through various HHS agencies. HHS, “HHS Announces $896.7 Million in Funding to
                  States for Public Health Preparedness and Emergency Response.” Available online at
                  http://www.hhs.gov/news/press/2007pres/07/pr20070717c.html. Accessed on July 20, 2009.
                  Then, in 2008, HHS provided an additional $1 billion in Public Health Emergency
                  Preparedness Program (PHEP) and Hospital Preparedness Program funds. See HHS,
                  “HHS Provides More Than $1 Billion to Improve All Hazards Public Health.” Available
                  online at http://www.hhs.gov/news/press/2008pres/06/20080603a.html. Accessed on May 12,
                  2009.
                      8 Awardees include all 50 States; Washington, DC; five territories (Puerto Rico, the
                  Virgin Islands, American Samoa, the Commonwealth of the Northern Mariana Islands, and
                  Guam); the Pacific Freely Associated States (Republic of the Marshall Islands, the Republic
                  of Palau, and the Federated States of Micronesia); and the localities of Chicago, Los Angeles
                  County, and New York City.
                      9 CDC has cited various authorities for the bioterrorism program and the pandemic
                  influenza supplement. Initially, CDC’s grant announcements for the bioterrorism program
                  indicated that funding was authorized under sections 301(a), 317(k)(1)(2), and 319 of the
                  Public Health Service (PHS) Act (42 U.S.C. §§ 241(a), 247b(k)(1)(2), and 247(d)). Beginning
                  in August 2005, CDC indicated that funding was authorized under section 319C of the PHS
                  Act (42 U.S.C. § 247d-3), which was subsequently repealed by the Pandemic and All-
                  Hazards Preparedness Act, P.L. No. 109-417 (Dec. 19, 2006). The pandemic influenza grant
                  announcements and guidance do not consistently describe the statutory authorizations, but
                  the CDC grant award documents list sections 301(a), 317(k)(1)(2), and 319 of the PHS Act
                  for Phases I and II and sections 319(a) and 317(k) of the PHS Act for Phase III. CDC is
                  currently relying on section 319C-1 of the PHS Act (42 U.S.C. § 247d-3a) for all of these
                  grant awards.
                     10 In September 2008, CDC also awarded $24 million to fund 55 projects in 29 State and
                  local public health departments to develop innovative approaches for pandemic influenza
                  preparedness.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               3
   I N T R O D            U C T                I O N 


                  • In Phase III (August 31, 2007, through August 9, 2008), States were to
                    fill gaps identified in Phases I and II.

                  For the most recent cooperative agreement budget year (August 10,
                  2008, through August 9, 2009), Congress did not appropriate additional
                  funding specifically for pandemic influenza preparedness. However,
                  CDC encourages States to request permission to use any unobligated
                  funds from the previous two funding periods to continue pandemic
                  influenza preparedness projects.11 As the PHEP has evolved, the
                  program’s guidance has become less prescriptive by allowing States to
                  select the projects that they intend to complete to improve their
                  preparedness.

                  In addition to issuing the PHEP cooperative agreement guidance, HHS
                  has distributed supplemental pandemic influenza preparedness
                  guidance.12 For example, the Phase II Pandemic Influenza Guidance
                  Supplement included planning and exercising recommendations for
                  distributing and dispensing vaccines and antiviral drugs. It also
                  referred to other HHS guidance documents that States and localities
                  could use in their pandemic influenza distribution and dispensing
                  planning, including the State and Local Pandemic Influenza Planning
                  Checklist.13 14
                  PHEP funding is provided to States, but localities will carry out many of
                  the activities needed to respond to an influenza pandemic. Although not
                  specified in PHEP cooperative agreement guidance, HHS has indicated
                  that it provides guidance to States that are in turn “expected to provide




                      11 Program Announcement AA154 (August 10, 2008–August 9, 2009). Available online at
                  http://emergency.cdc.gov/cotper/coopagreement/08/pdf/fy08announcement.pdf. Accessed on
                  May 12, 2009.
                    12 CDC, Pandemic Influenza Guidance Supplement to the 2006 Public Health Emergency
                  Preparedness Cooperative Agreement Phase II, 2006, Budget Period August 31, 2006–
                  August 30, 2007, and Phase III, 2007, Budget Period August 31, 2007–August 9, 2008.
                    13 HHS, State and Local Pandemic Influenza Checklist. Available online at
                  http://www.pandemicflu.gov/plan/pdf/checklist.pdf. Accessed on February 17, 2009.
                     14 The State and Local Pandemic Influenza Checklist identifies a number of supplements
                  to the HHS Pandemic Influenza Plan. Two of these supplements include recommendations
                  for State and local health departments regarding vaccine distribution and use and antiviral
                  drug distribution and use. Available online at
                  http://www.hhs.gov/pandemicflu/plan/sup6.html and
                  http://www.hhs.gov/pandemicflu/plan/sup7.html. Accessed on May 18, 2009.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               4
I N T R O D        U C T                I O N

                   guidance to their respective localities to ensure cohesion between State
                   and local preparedness plans.”15
                   Local Health Department Structure
                   Local health departments vary considerably in structure and size of
                   populations they serve. In 2005, the National Association of County and
                   City Health Officials identified a total of 2,864 local health departments
                   in the United States.16 These health departments can be a part of the
                   State health agency, part of the local government, or some combination
                   of these structures. Additionally, they serve both small and large
                   populations, ranging from less than 1,000 to nearly 10 million people.
                   These variations contribute to the complexity of providing guidance and
                   technical assistance to prepare for an event such as an influenza
                   pandemic.17
                   Vaccine and Antiviral Drug Distribution and Dispensing Components
                   Based on HHS pandemic influenza guidance documents and input from
                   CDC and ASPR, we identified eight broad components of vaccine and
                   antiviral drug distribution and dispensing planning. These components
                   provided a framework for our evaluation. We also developed 89
                   preparedness items to determine the extent of preparedness within each
                   of the components; these items are discussed at length in the
                   “Methodology” section. The following provides a general description of
                   the eight components and the activities that fall within each:

                   1. Receiving & Staging. Receiving and staging involves identifying
                   locations where vaccines and antiviral drugs will be received and staged
                   and developing procedures necessary to deliver them to dispensing sites.
                   These receiving and staging systems may differ for vaccines and
                   antiviral drugs. Vaccines will be delivered by the manufacturer to a
                   central State-controlled location or to multiple “ship-to” locations
                   throughout the State. Antiviral drugs are available in State caches (i.e.,
                   State or local stockpiles) and will be delivered through CDC’s Strategic




                       15 ASPR, CDC, Final Report Technical Comments, issued to OIG on June 11, 2009.
                       16 National Association of County and City Health Officials, 2005 National Profile of
                   Local Health Departments. Available online at
                   http://www.naccho.org/topics/infrastructure/profile/upload/NACCHO_report_final_000.pdf.
                   Accessed on June 24, 2009.
                       17 ASPR/CDC, Final Report Technical Comments, issued to OIG on June 11, 2009.



OEI-04-08-00260	   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                5
I N T R O D       U C T                I O N 


                  National Stockpile (SNS) program to a State-designated location.18
                  Localities may further distribute the vaccines and antiviral drugs to
                  other local receiving and staging locations or dispensing sites, as
                  needed.

                  2. Dispensing. Dispensing involves administering medications, such as
                  vaccines and antiviral drugs. It includes identifying facilities at which
                  dispensing will occur and developing procedures to operate and staff
                  these sites. For example, localities can identify facilities, such as local
                  schools, to serve as dispensing sites. They can also identify the
                  individuals who would be authorized to receive medications as well as
                  ensure that they have sufficient personnel to staff other necessary
                  positions.

                  3. Tracking. Tracking involves managing vaccine and antiviral drug
                  inventories by implementing inventory management systems at State or
                  local stockpiles, receiving and staging locations, and dispensing sites
                  and during transport between these facilities.
                  4. Vulnerable Populations. Vulnerable populations refer to groups, such
                  as the homeless, prison inmates, and nursing home residents, which
                  may not have access to traditional dispensing sites. Localities have
                  flexibility in defining these groups according to local circumstances.
                  They can also estimate the size of each vulnerable population and
                  develop specific dispensing plans for them.

                  5. Priority Groups. Priority groups are typically defined by occupation or
                  health status, such as health care and law enforcement personnel and
                  pregnant women. HHS has developed preliminary guidance regarding
                  priority group definitions, but localities and States are responsible for
                  determining how to best implement this guidance according to local and
                  State circumstances.19 They can also estimate the size of each priority
                  group, create specific dispensing plans for them, and identify which
                  groups will be the first to receive the limited supplies of vaccines and
                  antiviral drugs.


                      18 SNS is an HHS program that stores and delivers medicines and medical supplies from
                  Federal storage facilities to State receiving and staging locations. Available online at
                  http://www.bt.cdc.gov/stockpile/. Accessed on February 17, 2009.
                      19 HHS, Guidance on Allocating and Targeting Pandemic Influenza Vaccine. Available
                  online at http://www.pandemicflu.gov/vaccine/allocationguidance.pdf. Accessed on July 7,
                  2009. HHS, HHS Pandemic Influenza Plan. Available online at
                  http://www.hhs.gov/pandemicflu/plan/appendixd.html. Accessed on July 7, 2009.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               6
I N T R O D       U C T                I O N 


                  6. Security. Providing security for the vaccines and antiviral drugs
                  involves protecting these medications at State or local stockpiles and
                  receiving and staging locations through the point of dispensing.
                  Security may be an important component of a distribution and
                  dispensing plan because the vaccines and antiviral drugs will be limited
                  in quantity, yet high in demand, during an influenza pandemic.
                  Localities and States can develop detailed security plans for their own
                  stockpiles, receiving and staging locations, and dispensing sites and
                  during transport between these facilities.

                  7. Storage. Storing the vaccines and antiviral drugs involves ensuring
                  that the proper environmental conditions are maintained at State or
                  local stockpiles and receiving and staging locations until they are
                  dispensed. Vaccines and antiviral drugs may become less effective if
                  they are not stored in the environmental conditions specified by their
                  labeling. Vaccines typically require refrigeration, while antiviral drugs
                  should be stored at controlled room temperature. Localities and States
                  can develop detailed storage plans to ensure these conditions are
                  maintained at their own stockpiles, receiving and staging locations, and
                  dispensing sites and during transport between these facilities.

                  8. Transportation. Transporting the vaccines and antiviral drugs
                  involves moving them from State or local stockpiles and receiving and
                  staging locations to dispensing sites. Generally, States are responsible
                  for transportation to the localities. However, localities with distribution
                  responsibilities also need to provide local transportation. Localities and
                  States can develop detailed transportation plans, such as those that
                  specify routes and frequency of delivery.
                  Developing Plans for Vaccine and Antiviral Drug Distribution and
                  Dispensing
                  Localities and States may develop their plans for distributing and
                  dispensing vaccines and antiviral drugs during an influenza pandemic
                  by building on existing systems. For example, they may develop these
                  plans by building on existing local and State emergency preparedness




OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               7
I N T R O D       U C T                I O N

                  systems, such as those developed to receive and distribute medications
                  from CDC’s SNS program.20
                  In addition, the entity (i.e., locality or State) responsible for
                  implementing plans to distribute and dispense vaccines and antiviral
                  drugs during an influenza pandemic can differ by State. Localities
                  within the same State can also be responsible for implementing
                  different aspects of the plan. For example, one locality may have
                  transportation responsibilities while another locality within the same
                  State may rely on the State to transport medication to its dispensing
                  sites. Localities and States can also share the responsibility for
                  implementing a certain aspect of the plan (e.g., they both may share
                  responsibility for transporting vaccines and antiviral drugs to local
                  dispensing sites).
                  Ensuring That Plans for Vaccine and Antiviral Drug Distribution and
                  Dispensing Are Actionable
                  HHS, in conjunction with the Department of Homeland Security,
                  encourages States to develop emergency operating plans, in general,
                  and pandemic influenza operating plans, in particular, that are
                  actionable.21 22 That is, plans should specify the organization and/or
                  individuals responsible for carrying out specific actions; identify
                  personnel, equipment, facilities, and supplies available for use in a
                  disaster; and outline how all actions will be coordinated.
                  HHS recommends that States and localities identify sources of
                  personnel to staff positions in their plans for distributing and
                  dispensing vaccines and antiviral drugs during a pandemic.23 24

                      20 CDC, “Public Health Preparedness: Mobilizing State by State: A CDC Report on the
                  Public Health Emergency Preparedness Cooperative Agreement,” February 2008. Available
                  online at http://emergency.cdc.gov/publications/feb08phprep/pdf/feb08phprep.pdf. Accessed
                  on February 17, 2009.
                     21 HHS and Department of Homeland Security, “Assessment of States’ Operating Plans
                  to Combat Pandemic Influenza: Report to Homeland Security Council,” January 2009, pp.
                  6-7.
                      22 Federal Emergency Management Agency, State and Local Guide (SLG) 101: Guide for
                  All-Hazard Emergency Operations Planning, p. 1-1, September 1996. Available online at
                  http://www.fema.gov/pdf/plan/slg101.pdf. Accessed on May 12, 2009.
                      23 HHS, HHS Pandemic Influenza Plan, Supplement 6 Vaccine Distribution and Use, B.
                  Preparedness planning for vaccination against a pandemic influenza virus, 2. Vaccine
                  production, procurement, and distribution. Available online at
                  http://www.hhs.gov/pandemicflu/plan/sup6.html. Accessed on May 18, 2009.
                     24 Sources of personnel could include volunteers from community emergency response
                  teams, the Medical Reserve Corps, and the National Disaster Management System.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               8
I N T R O D       U C T                I O N

                  Additionally, in their staffing estimates, localities can consider factoring
                  in an absenteeism rate that could reach 40 percent during an influenza
                  pandemic.25 Localities and States can also train personnel prior to
                  performing their assigned duties.

                  Establishing formal agreements with partnering agencies is another
                  mechanism to ensure that plans are actionable and that the responsible
                  partnering agencies understand their roles and responsibilities. For
                  example, HHS uses the presence of written specific strategies and a
                  Memorandum of Agreement (MOA) or other type of formal agreement
                  with private and/or public agencies as a criterion when it evaluates
                  State-level pandemic influenza operating plans.26 Similarly, when CDC
                  reviews local SNS planning, it expects localities to provide written
                  documentation of local partnering agencies, acknowledging their roles
                  and responsibilities.27
                  Exercises To Address Vaccine and Antiviral Drug Distribution and
                  Dispensing
                  Exercises can test and improve localities’ and States’ preparedness to
                  distribute and dispense vaccines and antiviral drugs.28 Starting in
                  fiscal year 2007, CDC required that States’ exercise strategies build
                  on previous work and reflect Homeland Security Exercise and
                  Evaluation Program principles.29 30


                    25 HHS estimates that absenteeism because of illness, fear of infection, school closures,
                  and/or quarantining infected individuals’ contacts could reach 40 percent in a severe
                  pandemic. Available online at http://www.pandemicflu.gov/plan/pandplan.html. Accessed
                  on April 22, 2009.
                      26 HHS, “Evaluation Criteria for Key Supporting Activities Linked to PHEP Funding.”
                  Available online at http://emergency.cdc.gov/cotper/coopagreement/08/pdf/evaluation.pdf.
                  Accessed on June 30, 2009.
                      27 CDC conducts annual Technical Assistance Reviews of each State to determine its
                  level of preparedness to receive and distribute SNS assets. SNS program preparedness
                  requires States to distribute stockpile items, including antiviral drugs, during certain types
                  of emergencies. CDC, “Public Health Preparedness: Mobilizing State by State: A CDC
                  Report on the Public Health Emergency Preparedness Cooperative Agreement,” February
                  2008.
                      28 CDC, Pandemic Influenza Guidance Supplement to the 2006 Public Health Emergency
                  Preparedness Cooperative Agreement Phase II, 2006, Budget Period August 31, 2006–
                  August 30, 2007, op. cit., p. 6.
                    29 Program Announcement AA154 (August 31, 2007–August 9, 2008). Available online at
                  http://www.bt.cdc.gov/cotper/coopagreement/pdf/fy07announcement.pdf. Accessed on June
                  29, 2009.
                    30 Homeland Security Exercise and Evaluation Program. Available online at
                  https://hseep.dhs.gov/pages/1001_HSEEP7.aspx. Accessed on March 6, 2009.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               9
I N T R O D       U C T                I O N

                  Initial preparedness exercises are generally discussion based to
                  enable participants to become familiar with the plan or role-play.
                  Discussion-based exercises include seminars, workshops, games, and
                  tabletop exercises. More advanced exercises are generally operations
                  based and enable participants to execute and validate plans and
                  clarify roles. Operations-based exercises include drills, full-scale
                  exercises, and functional exercises.31 Exercises can also test the
                  functionality of one or several components of the plan (e.g., security,
                  transportation).

                  Once a preparedness exercise is completed, participants should create
                  an After Action Report to document the exercise.32 These reports
                  typically include the exercise objectives, participant observations, and
                  general recommendations to improve future performance. To
                  incorporate the lessons learned during the exercise, participants
                  should also develop an Improvement Plan that identifies specific
                  corrective actions necessary to improve the plan, assigns the actions
                  to responsible parties, and establishes target completion dates.33
                  Finally, participants should test the corrective actions in subsequent
                  exercises and update their planning documents accordingly.34
                  Collaborating With Community Partners To Plan for and Conduct Exercises
                  Related to Vaccine and Antiviral Drug Distribution and Dispensing
                  HHS recommends that States and localities collaborate with
                  community partners to develop and exercise their pandemic influenza
                  plans.35 A successful response to an influenza pandemic depends on
                  established partnerships and collaborative planning by public health
                  officials, law enforcement officials, hospital administrators, tribal




                      31 Ibid. 

                      32 CDC, Pandemic Influenza Guidance Supplement to the 2006 Public Health Emergency 

                  Preparedness Cooperative Agreement Phase II, loc. cit.
                      33 Ibid.
                      34 Ibid.
                    35 CDC, Pandemic Influenza Guidance Supplement to the 2006 Public Health Emergency
                  Preparedness Cooperative Agreement Phase II, op. cit., p. 34.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               10
I N T R O D       U C T                I O N

                  nations, and other community leaders (hereinafter referred to as
                  “community partners”).36 37
                  CDC requires all State and local public health exercises to be entered
                  into the Lessons Learned Information Sharing Web site or into the
                  National Exercise Schedule, which is maintained by the Department
                  of Homeland Security.38 This Web site also enables State and local
                  planners to share planning documents, lessons learned, and
                  innovative practices, as well as comments, experiences and
                  observations.39
                  Related Work
                  In February 2009, the Government Accountability Office (GAO)
                  identified major gaps in domestic pandemic influenza planning and
                  exercising, such as insufficient capacity to acquire and distribute
                  medical supplies and inadequate vaccine production, distribution, and
                  dispensing capacities.40
                  In December 2002, OIG reported that State and local public health
                  infrastructure was underprepared to detect and respond to
                  bioterrorism.41 Specifically, OIG found that some States and localities
                  did not have complete SNS receipt and deployment plans and had not
                  tested some of their existing response protocols.


                  METHODOLOGY
                  Scope
                  We assessed 10 selected localities’ preparedness to distribute and
                  dispense vaccines and antiviral drugs during an influenza pandemic
                  as of late summer 2008. Through conducting onsite interviews and


                      36 Ibid, p. 3.
                      37 The Pandemic Influenza Guidance Supplement does not list the community partners
                  that States and localities should collaborate with when developing and exercising their
                  plans.
                    38 CDC, Program Announcement AA154 (August 31, 2007–August 9, 2008), p. 17.
                  Available online at http://www.bt.cdc.gov/cotper/coopagreement/pdf/fy07announcement.pdf.
                  Accessed on May 21, 2009.
                      39 Federal Emergency Management Agency. Lessons Learned Information Sharing.
                  Available online at https://www.llis.dhs.gov/index.do. Accessed on May 21, 2009.
                      40 “Influenza Pandemic: Sustaining Focus on the Nation’s Planning and Preparedness
                  Efforts,” GAO-09-334.
                      41 OIG, “State and Local Bioterrorism Preparedness,” OEI-02-01-00550.



OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               11
I N T R O D       U C T                I O N

                  reviewing planning documents, we determined the extent to which
                  these 10 localities had prepared to distribute and dispense vaccines
                  and antiviral drugs by addressing the eight components and
                  89 preparedness items that we identified based on HHS guidance. We
                  also determined the extent to which localities conducted and
                  documented exercises to test their plans to distribute and dispense
                  vaccines and antiviral drugs. Finally, we identified the community
                  partners with which the localities collaborated to develop and/or
                  exercise these plans.
                  Selection of Localities
                  We first selected a purposive sample of five States based on variability
                  in the following factors: health department structure, population
                  density, geographic distribution, tribal representation, number of
                  incoming travelers from Asia, information gathered from preinspection
                  site visits, SNS Technical Assistance Review scores, and CDC
                  recommendations.42 We eliminated States included in recent GAO
                  pandemic influenza preparedness work related to this evaluation, and
                  we selected one State included in companion OIG studies.

                  We then selected two localities within each State based on variability in
                  population density, geographic distribution within the State, and receipt
                  of Cities Readiness Initiative funding.43 See Appendix A for a list of
                  selected States and localities.
                  Selection of Vaccine and Antiviral Drug Distribution and Dispensing
                  Components and Preparedness Items
                  We identified eight broad components of vaccine and antiviral drug
                  distribution and dispensing planning and identified a total of
                  89 preparedness items within these components to include in our
                  evaluation. We identified the components and preparedness items based
                  on our review of HHS pandemic influenza guidance and input from CDC
                  and ASPR. Table 1 lists the number of preparedness items we developed


                     42 According to a June 2007 GAO report, U.S. agency officials consider Egypt, Nigeria,
                  and some Southeast Asian countries such as Indonesia to pose high levels of pandemic risk.
                  “Influenza Pandemic Efforts to Forestall Onset Are Under Way: Identifying Countries at
                  Highest Risk Entails Challenges,” GAO-07-604. Available online at
                  http://www.gao.gov/new.items/d07604.pdf. Accessed on February 17, 2009.
                      43 CDC provides funding to major United States cities through the Cities Readiness
                  Initiative. The Cities Readiness Initiative helps cities prepare to quickly dispense
                  medicines and medical supplies during a public health emergency. Available online at
                  http://www.bt.cdc.gov/cri/facts.asp. Accessed on February 17, 2009.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               12
I N T R O D        U C T                I O N

                   to determine the level of preparedness within each of the eight
                   components.

                        Table 1: Number of Preparedness Items We
                        Developed for Each Vaccine and Antiviral Drug
                        Distribution and Dispensing Component
                                                                                                               Number of Preparedness
                        Component                                                                                 Items We Developed
                        Receiving & Staging                                                                                        15
                        Dispensing                                                                                                 23
                        Tracking                                                                                                    6
                        Vulnerable Populations                                                                                      3
                        Priority Groups                                                                                             5
                        Security                                                                                                   15
                        Storage                                                                                                    13
                        Transportation                                                                                              9
                           Total                                                                                                   89
                        Source: OIG review of HHS pandemic influenza guidance documents and input from CDC 

                        and ASPR, 2008. 





                   Data Collection
                   We developed an interview guide based on the eight components and
                   89 preparedness items. The interview guide included questions about
                   the types of exercises localities and States conducted, the components
                   tested during the exercises, and whether the exercises were documented
                   with After Action Reports and/or Improvement Plans. In addition, we
                   included a checklist of community partners to determine which partners
                   each of the selected localities collaborated with to plan for and/or
                   conduct exercises related to distributing and dispensing vaccines and
                   antiviral drugs in response to an influenza pandemic.44
                   Structured interviews. Between July and September 2008, we conducted
                   structured interviews with local and State health department officials
                   and other officials involved with pandemic influenza preparedness and
                   response (e.g., representatives from the State departments of homeland
                   security, law enforcement agencies, and emergency management
                   agencies). During the interviews, we asked local and State officials to
                   identify which entity (e.g., the local or State health department) was
                   responsible for implementing each of the components and/or



                     44 We developed the checklist based primarily on the collaboration checklist in the SNS
                   Technical Assistance Review.


OEI-04-08-00260	   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                13
I N T R O D        U C T             I O N


                    preparedness items in our review. We used this information to identify
                    the relevant components and preparedness items for each entity.

                    For each preparedness item, we generally requested two types of
                    documentation: planning documentation (e.g., Pandemic Influenza and
                    SNS plans and any other planning documents that addressed the eight
                    components) and supporting documentation (e.g., formal agreements,
                    such as MOAs, interagency agreements, and contracts). We expected
                    the formal agreement to be both valid (i.e., current and signed by both
                    parties) and detailed (i.e., specifying the terms, such as the resource or
                    service, that the partnering agency would provide).
                    For example, for the preparedness item regarding whether the locality
                    had a plan to ensure security at the dispensing site, we asked for:

                    • a general description of the security plan in a planning document (e.g.,
                      identification of the partnering agency responsible for ensuring
                      security during the event specified in the planning document);

                    • a detailed plan, such as a security site assessment; and

                    • a valid and detailed formal agreement, where applicable.

                    We also asked local and State officials to identify all exercises related to
                    distributing and dispensing vaccines and antiviral drugs that they
                    conducted between September 2006 and July 2008. Then we asked
                    them to identify the exercise type and component(s) tested. They
                    provided After Action Reports and Improvement Plans for these
                    exercises, when available. In addition, we asked local officials to
                    identify on the collaboration checklist we provided which partners they
                    collaborated with to develop and/or exercise their plans to distribute
                    and dispense vaccines and antiviral drugs during an influenza
                    pandemic.

                    We followed up with localities and States to clarify interview responses
                    and to request additional planning and supporting documentation, as
                    needed.
                    Data Analysis
                    We reviewed each locality’s and State’s documentation and determined
                    whether the plans were actionable for each preparedness item. That is,
                    we looked to see whether plans identified the organizations or
                    individuals responsible for carrying out specific actions; the sources of
                    personnel that would be necessary to staff distribution and dispensing


 OEI-04-08-00260    L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                    DISPENSING
                                                                                                                                                 14
I N T R O D       U C T                I O N

                  positions; and whether they included valid, detailed formal agreements
                  with partnering agencies.

                  The results we report reflect the extent to which the locality and its
                  respective State addressed the components and preparedness items.
                  Specifically, for preparedness items where the State was the only
                  responsible entity, we considered the locality to have addressed those
                  items if the State provided an actionable plan.

                  For preparedness items where the locality and the State were jointly
                  responsible for aspects of the plan, both the locality and the State
                  needed to provide actionable plans. For example, we considered
                  localities that shared distribution responsibilities with the State to have
                  planned for identifying receiving and staging locations if both the
                  locality and State had all the necessary documentation. That is, (1) the
                  locality had to refer to local receiving and staging locations in its
                  planning documents and provide valid and detailed formal agreements
                  with the facilities and (2) the State had to refer to State-level receiving
                  and staging locations in its planning documents and provide valid and
                  detailed formal agreements with those facilities.

                  For preparedness items that applied to both vaccines and antiviral
                  drugs, localities and States needed to provide actionable plans for both
                  vaccines and antivirals drugs. For example, for a locality to receive
                  credit for defining dispensing priority groups in its plan, it needed to
                  include both a general description and detailed lists of these groups for
                  both vaccines and antiviral drugs.

                  During the interviews, we asked about plans for distributing or
                  dispensing vaccines and antiviral drugs separately. Even though
                  localities and States typically had different distribution and dispensing
                  plans for vaccines and antiviral drugs, there were not many differences
                  in whether these plans were actionable. For example, if a locality had
                  an actionable plan for vaccines, it generally also had an actionable plan
                  for antiviral drugs. Therefore, for ease of presentation, we combined the
                  vaccine and antiviral responses and provided a cumulative response in
                  favor of presenting the vaccine and antiviral drug results separately. In
                  other words, the number of localities that we report in Appendix B as
                  having planning and supporting documentation for each preparedness
                  item reflects the number of localities that provided actionable plans for
                  both vaccines and antiviral drugs, where applicable.


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               15
I N T R O D       U C T                I O N

                  Once we reviewed the planning and supporting documentation, we
                  analyzed it by component, preparedness item, and locality. We
                  determined the number of components for which each locality addressed
                  at least one preparedness item. Similarly, we determined the number of
                  localities that addressed at least one preparedness item in each of the
                  eight components.

                  Next, we determined the range, average, and average percentage of
                  items addressed in each component across localities. We did this by
                  summing the total number of items that localities addressed in a
                  component and dividing by the total number of items in that component
                  across localities. For reporting purposes, we presented the eight
                  components in three groups based on the average percentage of items
                  addressed in the components and the functional similarity of the
                  components.

                  Next, we determined the total number of exercises localities conducted
                  or actual emergencies localities responded to that were related to
                  vaccine or antiviral drug distribution and/or dispensing (pandemic
                  influenza or otherwise) and addressed any of the eight components.
                  Similarly, we included any State-level exercises or actual emergencies
                  that met the above criteria in which the localities participated either
                  directly or indirectly. We also determined the number of components
                  for which each locality conducted exercises and the number of localities
                  that conducted at least one exercise to test any of the eight components.
                  Additionally, we determined the number of exercises that were
                  documented with After Action Reports and Improvement Plans.

                  Finally, we determined the number of types of community partners each
                  locality collaborated with during planning or conducting exercises for
                  pandemic influenza vaccine and/or antiviral drug distribution and
                  dispensing.
                  Limitations
                  This study is based on a purposive sample of five States and two
                  localities within each State. The findings cannot be projected to other
                  States and localities.

                  We identified the eight components of vaccine and antiviral drug
                  distribution and dispensing planning and the 89 preparedness items to
                  serve as indicators of local preparedness from a number of HHS
                  guidance documents and with input from CDC and ASPR. However,


OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               16
I N T R O D       U C T                I O N

                  there are other vaccine and antiviral drug distribution and dispensing
                  preparedness items that we did not review. For example, we did not
                  include items regarding legal preparedness that HHS recommends
                  States and localities resolve prior to an influenza pandemic.

                  We assessed localities’ preparedness to distribute and dispense vaccines
                  and antiviral drugs in response to an influenza pandemic based on their
                  formalized planning documents and agreements with partnering
                  agencies. We did not give localities credit for preparedness items that
                  were not documented at the time of our review. In addition, some State
                  and local emergency managers may have the authority to dictate
                  support for their pandemic influenza response efforts from partnering
                  agencies without having formal agreements with them in advance.

                  Most of the exercise and collaboration data were self-reported. We did
                  not determine the extent to which localities collaborated with the
                  community partners they identified.
                  Standards
                  This evaluation was conducted in accordance with the “Quality
                  Standards for Inspections” approved by the Council of the Inspectors
                  General on Integrity and Efficiency.




OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               17
Δ      F I N D I N G S


  Selected localities had not addressed in their           As of late summer 2008, the
  planning documents most of the vaccine and               10 selected localities had not
     antiviral drug distribution and dispensing            addressed most of the eight vaccine
components and preparedness items identified               and antiviral drug distribution and
                                                           dispensing components and
          in HHS pandemic influenza guidance
                                                           89 preparedness items that we
                      identified based on our review of HHS pandemic influenza guidance and
                      input from CDC and ASPR. That is, none of the selected localities had
                      started planning in all eight components. Further, on average, the
                      selected localities had not addressed more than half of the preparedness
                      items in any of the components.
                      Specifically, across components, selected localities’ plans to distribute
                      and dispense vaccines and antiviral drugs generally were not
                      actionable. For example, the selected localities typically had not
                      estimated staffing needs, and when they did, they had not factored
                      absenteeism rates into their estimates. Further, across components,
                      localities did not have valid and detailed formal agreements with the
                      partnering agencies that would be responsible for carrying out various
                      distribution and dispensing responsibilities.
                      Selected localities varied in the extent to which they addressed the vaccine
                      and antiviral drug distribution and dispensing components in their planning
                      documents
                      The 10 selected localities varied in the extent to which they addressed
                      the eight vaccine and antiviral drug distribution and dispensing
                      components. That is, these localities varied in the number of
                      components in which they addressed at least one preparedness item.
                      Table 2 presents the localities that addressed at least one preparedness
                      item in each of the eight components.




    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   18
    F   I N D I N G                    S


Table 2: Selected Localities That Addressed in Their Planning Documents At
Least One Preparedness Item in the Eight Vaccine and Antiviral Drug Distribution
and Dispensing Components
             Receiving &                                           Vulnerable              Priority
Locality       Staging       Dispensing         Tracking           Populations             Groups           Security          Storage    Transportation         TOTAL
  A               X                X                  X                    X                                     X               X             X                  7
  B               X                X                  X                    X                   X                                               X                  6
  C               X                X                  X                                        X                 X               X                                6
  D               X                X                  X                                        X                 X               X                                6
  E               X                X                  X                                                          X               X                                5
  F               X                X                  X                                                          X               X                                5
  G               X                X                  X                                                          X               X                                5
  H               X                X                  X                                                                                        X                  4
  I               X                                                        X                   X                                 X                                4
  J               X                                                        X                                                                                      2
TOTAL             10               8                  8                    4                   4                 6               7             3
Source: OIG analysis of 2008 data from selected States and localities, 2009.




                                   All localities addressed at least one preparedness item in two or more of
                                   the vaccine and antiviral drug distribution and dispensing components.
                                   However, no locality addressed at least one preparedness item in all
                                   eight components.

                                   All 10 localities addressed at least one preparedness item within the
                                   component of Receiving & Staging. Most localities addressed at least
                                   one preparedness item in the components of Dispensing and Tracking.
                                   Conversely, fewer than half of localities addressed at least one
                                   preparedness item in the components of Vulnerable Populations,
                                   Priority Groups, and Transportation.
                                   Selected localities addressed the highest percentage of preparedness items
                                   in the Receiving & Staging and Dispensing Components
                                   The 10 selected localities’ planning documents addressed the highest
                                   percentage of preparedness items in the Receiving & Staging and
                                   Dispensing components. Table 3 presents the number of preparedness
                                   items we reviewed in each component and the average number, average
                                   percentage, and the range of items addressed. See Appendix B for the
                                   number of localities that addressed each preparedness item, by
                                   component.




        OEI-04-08-00260            L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                   DISPENSING
                                                                                                                                                                      19
F   I N D I N G               S


             Table 3: Average Number, Average Percentage, and Range of
             Preparedness Items Addressed by Selected Locality Planning
             Documents in the Eight Components
                                                                                                   Average                     Average
                                                                 Number of                       Number of                Percentage of
                                                                   Items in                          Items                        Items     Range of Items
             Component                                          Component                        Addressed                   Addressed         Addressed
             Receiving & Staging                                        15                              6.2                         41%                1-10
             Dispensing                                                 23                              6.8                         30%                0-13
             Tracking                                                     6                             1.4                         23%                 0-5
             Vulnerable Populations                                       3                             0.5                         17%                 0-2
             Priority Groups                                              5                             0.6                         12%                 0-2
             Security                                                   15                              1.7                         11%                 0-6
             Storage                                                    13                              1.1                          8%                 0-3
             Transportation                                               9                             0.3                          3%                 0-1
                Total                                                   89                             18.2                         20%                2-31
             Source: OIG analysis of 2008 data from selected States and localities, 2009.




                            Localities addressed a higher percentage of preparedness items in
                            Receiving & Staging than in Dispensing. Again, Receiving & Staging
                            refers to receiving, organizing, and preparing vaccines and antiviral
                            drugs for delivery to dispensing sites, while dispensing refers to
                            administering these medications. All five States we reviewed were
                            responsible for initial receipt of antiviral drugs from the SNS. Four of
                            the five States we reviewed were responsible for initial receipt of
                            vaccines from the manufacturer. The following sections present data
                            related to identifying receiving and staging locations and dispensing
                            sites, developing procedures, and staffing positions at receiving and
                            staging locations and dispensing sites.

                            Identifying receiving and staging locations and dispensing sites. Five
                            localities identified health department facilities as vaccine and antiviral
                            drug receiving and staging locations or had valid and detailed formal
                            agreements with private distributors. However, only three localities
                            identified vaccine dispensing sites and had valid formal agreements
                            with these facilities, which typically were schools and community
                            centers.

                            Generally, localities planned to dispense antiviral drugs only to sick
                            individuals seeking treatment at hospitals rather than provide them as
                            part of a mass dispensing scenario to prevent illness. Therefore, we did
                            not include antiviral drug dispensing in our review of documentation for
                            the Dispensing component.


    OEI-04-08-00260         L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                            DISPENSING
                                                                                                                                                         20
F   I N D I N G 
S


                      Receiving, staging, and dispensing procedures. Approximately half of the
                      localities addressed three items we reviewed regarding receiving and
                      staging procedures. These items included identifying the procedures
                      for: receiving vaccines and antiviral drugs at the receiving and staging
                      location, requesting additional supplies of antiviral drugs if local
                      supplies are depleted, and transfer of authority for the vaccines and
                      antiviral drugs from officials at the receiving and staging location to
                      officials at local dispensing sites. However, only three localities
                      identified the officials who would be authorized to receive vaccines at
                      local dispensing sites.

                      Staffing positions at receiving and staging locations and dispensing sites.
                      Localities primarily relied on a combination of health department
                      officials and personnel from the receiving and staging location to staff
                      receiving and staging positions. Five localities identified these sources
                      of personnel and had valid and detailed formal agreements with the
                      partnering agencies. However, only two localities’ planning documents
                      identified the number of personnel each source would provide.
                      Additionally, no locality took absenteeism into account, which could be
                      as high as 40 percent, when estimating the number of personnel needed
                      at the receiving and staging location.

                      To staff positions at local dispensing sites, localities generally planned
                      to use individuals from the local health department, local or county
                      school districts, the Medical Reserve Corps, the American Red Cross,
                      and spontaneous volunteers. Three localities had valid and detailed
                      formal agreements with each partnering agency they identified to
                      provide dispensing site personnel. However, even though most localities
                      estimated the number of individuals they would need to staff one
                      dispensing site, no locality’s planning documents identified the number
                      of personnel each source of staff would provide. Finally, no locality took
                      absenteeism into account when estimating the number of personnel
                      needed at dispensing sites.
                      Selected localities addressed a lower percentage of preparedness items in
                      the Tracking, Vulnerable Populations, and Priority Groups Components
                      The 10 selected localities’ pandemic influenza plans addressed a lower
                      percentage of preparedness items in the components of Tracking,
                      Vulnerable Populations, and Priority Groups than in Receiving &
                      Staging and Dispensing.



    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   21
F   I N D I N G 
S


                      Tracking. Localities differed in the extent to which they documented
                      inventory management systems for various segments of their vaccine
                      and antiviral drug distribution and dispensing plans. A few localities
                      provided documentation of tracking systems at the receiving and
                      staging locations, during transit from these locations, and at dispensing
                      sites. These tracking systems included the SNS Resource Inventory
                      Tracking System, systems used by private distributors, and various
                      electronic systems that would be used to track patients after they
                      received a vaccine at dispensing sites. However, only 1 of the
                      10 localities provided documentation of a tracking system at the State
                      or local stockpile and during transit from that location.
                      Vulnerable Populations. Four localities included specific definitions of
                      vulnerable populations in their planning documents. In addition, one
                      locality included a detailed plan describing how it would reach these
                      groups and dispense vaccines and antiviral drugs to them. However, no
                      locality estimated the size of each vulnerable population it identified.

                      Priority Groups. Three localities developed plans to dispense vaccines to
                      priority group members. These plans included vaccinating priority
                      group members at hospitals, police stations, and/or fire departments.
                      However, only one locality’s plan defined priority groups for both
                      vaccine and antiviral drug dispensing. Finally, none of the localities
                      estimated the size of these groups, so they would not know when to
                      move from one priority group to the next.
                      Selected localities addressed the lowest percentage of preparedness items
                      in the Security, Storage, and Transportation Components
                      The 10 selected localities addressed the lowest percentage of
                      preparedness items in the components of Security, Storage, and
                      Transportation. Specifically, they did not address any of the
                      preparedness items regarding security, storage, or transportation plans
                      at the State or local stockpiles, receiving and staging locations, or
                      dispensing sites or during transport between these facilities.
                      Additionally, very few localities addressed the staffing items we
                      reviewed for these components, including taking absenteeism into
                      account when estimating the number of personnel needed to implement
                      security, storage, and transportation plans.

                      Security. Although no locality provided an actionable security plan,
                      most localities had some documentation. Those localities having partial
                      documentation generally listed the partnering agencies they would rely

    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   22
F   I N D I N G         S


                  on to provide security and outlined areas of responsibility for these
                  agencies. The agencies generally included local law enforcement
                  groups, such as the police or sheriff’s department. However, most
                  localities did not have valid and detailed formal agreements with these
                  agencies. Additionally, most localities lacked detailed site and route
                  assessments for the State or local stockpiles, receiving and staging
                  locations, and dispensing sites and during transit between these sites.
                  Finally, while a few localities estimated the number of security staff
                  they would need for a portion of their plan, none identified the number
                  of personnel the partnering agency would provide.

                  Storage. Although no locality provided an actionable storage plan,
                  several localities had some documentation. Those localities having
                  partial documentation generally noted in their planning documents the
                  need to ensure appropriate environmental conditions for the vaccines
                  and antiviral drugs. These documents typically included statements
                  about providing refrigeration for vaccines and storing antiviral drugs in
                  temperature-controlled environments. However, the majority of
                  localities did not identify how the appropriate environmental conditions
                  would be maintained throughout the distribution and dispensing
                  process. For example, their planning documents lacked standard
                  storage protocols and site assessments to indicate whether a facility had
                  controlled room temperature or refrigeration capabilities.

                  Transportation. Although no locality provided an actionable
                  transportation plan, several localities had some documentation. Those
                  localities having partial documentation generally addressed
                  transportation in their planning documents by identifying the
                  partnering agencies responsible for transportation. These agencies
                  typically included private carriers and school districts. However, the
                  majority of localities did not have detailed transportation plans (i.e.,
                  plans that specify routes and frequency) or valid and detailed formal
                  agreements with the partnering agencies responsible for transportation.
                  Finally, no locality estimated the number of drivers it would need to
                  transport the vaccines and antiviral drugs.




OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                  DISPENSING
                                                                                                                                               23
   F   I N D I N G          S           





      All selected localities conducted exercises                                                        All 10 selected localities conducted
related to vaccine and antiviral drug distribution                                                       exercises related to vaccine and
   and dispensing; however, most did not create                                                          antiviral drug distribution and
                                                                                                         dispensing, but 9 localities did not
After Action Reports and Improvement Plans for
                                                                                                         create both After Action Reports
                                  these exercises
                                                                                                         and Improvement Plans for all of
                      their exercises.

                      Between September 2006 and July 2008, the 10 selected localities
                      conducted a total of 63 exercises to test their distribution and
                      dispensing plans, ranging from 2 to 12 exercises within a locality.
                      Selected localities varied in the extent to which they exercised the vaccine
                      and antiviral drug distribution and dispensing components
                      The 10 selected localities varied in the extent to which they addressed
                      the eight vaccine and antiviral drug distribution and dispensing
                      components in their exercises. That is, localities varied in the number
                      of components tested during these exercises, ranging from four
                      components in one locality to all eight components in five localities.

                      Overall, localities conducted the most exercises to test the components
                      of Security (42 exercises) and Dispensing (39 exercises). Table 4
                      presents the total number of exercises that addressed each component.
                      It also identifies the number of localities that conducted at least one
                      exercise to address each component.




    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   24
             F   I N D I N G                   S


Table 4: Selected Localities That Conducted At Least One Exercise To Test the
Vaccine and Antiviral Drug Distribution and Dispensing Components* **

             Receiving &                                              Vulnerable               Priority
               Staging         Dispensing        Tracking             Populations              Groups                Security            Storage     Transportation
                (n=32             (n=39           (n=30                  (n=27                  (n=27                 (n=42               (n=25          (n=29
Locality     Exercises)        Exercises)       Exercises)             Exercises)             Exercises)            Exercises)          Exercises)     Exercises)         TOTAL
A                 X                 X                  X                      X                      X                    X                 X              X                8
B                 X                                    X                                                                  X                                X                4
C                 X                 X                  X                      X                      X                    X                 X              X                8
D                 X                 X                  X                      X                      X                    X                 X              X                8
E                 X                 X                  X                      X                                           X                 X              X                7
F                 X                 X                                         X                      X                    X                 X              X                7
G                 X                 X                  X                      X                                           X                                X                6
H                 X                 X                                         X                      X                    X                                X                6
I                 X                 X                  X                      X                      X                    X                 X              X                8
J                 X                 X                  X                      X                      X                    X                 X              X                8
  TOTAL           10                9                  8                      9                      7                    10                7              10
Source: OIG analysis of 2008 data from selected States and localities, 2009.
*One locality did not indicate the components that it tested in two exercises.
** Most of the 63 exercises tested more than one component.




                                             All 10 localities conducted at least one exercise to test their ability to
                                             receive and stage, provide security for, and transport vaccines and
                                             antiviral drugs. In addition, seven localities conducted exercises to test
                                             their ability to dispense these medications to priority groups or store
                                             them during the distribution and dispensing process.
                                             Selected localities conducted a similar number of discussion-based and
                                             operations-based distribution and dispensing exercises
                                             The 10 selected localities conducted a similar number of discussion-
                                             based and operations-based distribution and dispensing exercises
                                             between September 2006 and July 2008. These localities also responded
                                             to two actual emergencies that tested some aspect of their plans to
                                             distribute and dispense medications. Table 5 presents the number and
                                             percentage of these exercises that selected localities conducted, by
                                             exercise type.




                 OEI-04-08-00260             L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                             DISPENSING
                                                                                                                                                                                25
F   I N D I N G          S



                       Table 5: Number and Percentage of Exercises Related to
                       Vaccine and Antiviral Drug Distribution and Dispensing That
                       Selected Localities Conducted Between September 2006 and
                       July 2008, by Type of Exercise

                      Type of Exercise                                               Number of Exercises                    Percentage of Exercises

                      Discussion-based                                                                             31                               49%

                      Operations-based                                                                             30                               48%

                      Actual Emergency                                                                              2                                3%

                          Total                                                                                    63                               100%

                      Source: OIG analysis of data from selected States and localities, 2009.



                       Discussion-based exercises are generally used to familiarize
                       participants with the overall preparedness plan. Most (22 of 31) of the
                       discussion-based exercises were tabletop exercises. Localities also
                       conducted five workshops and four seminars.

                       Operations-based exercises are generally used to validate the 

                       preparedness plan and clarify participant roles. Most (20 of 30) of the 

                       operations-based exercises that localities conducted were full-scale 

                       exercises. Localities also conducted five functional exercises and five 

                       drills. 

                       Selected localities did not create both After Action Reports and

                       Improvement Plans for 80 percent of all distribution and dispensing 

                       exercises they conducted 

                       The 10 selected localities did not always create both After Action
                       Reports and Improvement Plans for the distribution and dispensing
                       exercises they conducted. Localities were more likely to document these
                       exercises with just After Action Reports. In addition, only one locality
                       tested a proposed solution identified in an Improvement Plan.

                       Figure 1 provides the number and percentage of distribution and

                       dispensing exercises for which selected localities provided no 

                       documentation, After Action Reports only, and both After Action

                       Reports and Improvement Plans. 





    OEI-04-08-00260    L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                       DISPENSING
                                                                                                                                                       26
      F    I N D I N G              S           





      Figure 1:
   Number and
  Percentage*
                                                           After Action

  of Localities’                                            Report and 

   Distribution                                          Corrective Action

and Dispensing                                                 Plan
                                                                               No
     Exercises                                            (13 Exercises;                                                                      Documentation
          With No                                              21%)                                                                           (20 Exercises;
Documentation,                                                                                                                                    32%)
   After Action
  Reports Only,
      and Both
   After Action
   Reports and
  Improvement
            Plans
                                                          After Action
                                                          Report Only
                                                         (30 Exercises;
                                                              48%)

                       Source: OIG analysis of data from selected States and localities, 2009.
                       *Percentages in figure do not sum to 100 percent because of rounding.




                                   Localities varied in the extent to which they documented their
                                   distribution and dispensing exercises with After Action Reports and
                                   Improvement Plans. Seven localities developed both After Action
                                   Reports and Improvement Plans for at least one of their exercises.
                                   However, an equal number of localities did not provide any
                                   documentation for at least one exercise.

                                   Figure 2 presents the total number of distribution and dispensing
                                   exercises each locality conducted and the number of exercises for which
                                   selected localities provided no documentation, After Action Reports only,
                                   and both After Action Reports and Improvement Plans.




           OEI-04-08-00260        L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                  DISPENSING
                                                                                                                                                               27
         F   I N D I N G                                S        




       Figure 2:
     Number of                                          12
Distribution and
     Dispensing                                         10
      Exercises

                                  Number of Exercises
 Each Selected                                          8                                                                            After Action Report and
       Locality                                                                                                                      Corrective Action Plan
     Conducted                                                                                                                       After Action Report Only
                                                        6
 by the Number
   of Exercises                                                                                                                      No Documentation
                                                        4
        With No
Documentation,
   After Action                                         2
  Reports Only,
       and Both                                         0
   After Action                                              A       B   C    D    E       F       G        H        I      J
   Reports and                                                               Selected Localities
  Improvement
          Plans



                     Source: OIG analysis of data from selected States and localities, 2009.




             All selected localities collaborated with                All 10 selected localities worked
      community partners to develop and exercise                      with different types of community
                                                                      partners (e.g., hospitals, educational
    their plans to distribute and dispense vaccines
                                                                      institutions) to develop and exercise
             and antiviral drugs during an influenza
                                                                      their plans to distribute and
                                            pandemic                  dispense vaccines and antiviral
                                                                      drugs during an influenza
                                 pandemic. See Appendix C for a list of community partners and the
                                 number of selected localities that collaborated with each partner during
                                 planning and exercising.

                                 Collaboration in planning. On average, localities collaborated with
                                 16 types of partners (ranging from 12 to 22) to develop their plans to
                                 distribute and dispense vaccines and antiviral drugs during an
                                 influenza pandemic. All selected localities collaborated with
                                 educational institutions, the State or local emergency management
                                 agencies, and hospitals. Localities did not generally collaborate in
                                 planning with the National Disaster Medical System, community

         OEI-04-08-00260	        L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                 DISPENSING
                                                                                                                                                               28
F   I N D I N G         S


                      emergency response teams, the regional HHS Liaison, the Department
                      of Transportation, or the Department of Homeland Security.

                      Collaboration in exercises. Localities collaborated with an average of
                      13 types of partners (ranging from 5 to 19) to exercise their plans to
                      distribute and dispense vaccines and antiviral drugs during an
                      influenza pandemic. These partners generally included educational
                      institutions, law enforcement agencies, and the medical community.
                      Localities generally did not collaborate with the Department of
                      Homeland Security, the regional HHS Liaison, the National Disaster
                      Medical System, home health or visiting nurses agencies, and
                      community emergency response teams to exercise their plans.




    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   29
R E   CR OE MC MO E M N MD EA NT D
                                 I OA NT SI O N S
Δ


                    The World Health Organization’s recent declaration of the start of the
                    2009 H1N1 influenza pandemic highlights the need for the Nation to be
                    prepared to distribute and dispense vaccines and antiviral drugs. In its
                    review of 2008 State pandemic influenza operating plans, ASPR found
                    “very few gaps in State-level readiness for antiviral drug distribution.”
                    Additionally, ASPR found that States were “doing well” with respect to
                    developing State-level pandemic influenza vaccination plans. However,
                    their review did not assess local preparedness to distribute and dispense
                    vaccines and antiviral drugs in response to an influenza pandemic.

                    We found that while the majority of selected localities had begun
                    planning to distribute and dispense vaccines and antiviral drugs, their
                    plans were generally not actionable. Specifically, we found that
                    localities had not addressed in their planning and supporting
                    documentation most of the vaccine and antiviral drug distribution and
                    dispensing components and preparedness items we identified in HHS
                    pandemic influenza guidance. Localities addressed the highest
                    percentage of preparedness items within the Receiving & Staging and
                    Dispensing components and the lowest percentage of items within
                    Security, Storage, and Transportation. In addition, all localities had
                    conducted exercises related to distributing and dispensing vaccines and
                    antiviral drugs. However, localities did not consistently create After
                    Action Reports and Improvement Plans for these exercises or test
                    solutions identified in the Improvement Plans. Finally, all localities
                    collaborated with community partners to develop and test their plans to
                    distribute and dispense vaccines and antiviral drugs during an
                    influenza pandemic.

                    While the majority of selected localities had begun planning to
                    distribute and dispense vaccines and antiviral drugs, more needs to be
                    done to improve local preparedness. Therefore, we recommend that
                    CDC work with States to:
                    Improve local pandemic influenza vaccine and antiviral drug distribution
                    and dispensing preparedness
                    CDC, in coordination with States, could improve pandemic influenza
                    vaccine and antiviral drug preparedness at the local level by taking the
                    following actions:



  OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                    DISPENSING
                                                                                                                                                 30
R 	E C O      M M E N D A T                         I O N               S


                   •	      Determine why localities appear to be in the early stages of planning
                           for pandemic influneza vaccine and antiviral drug distribution and
                           dispensing, and provide assistance to improve their preparedness.

                   •	      Prioritize the planning areas where States should focus any
                           carryover or future pandemic influenza funding to quickly improve
                           local preparedness to distribute and dispense vaccines and antiviral
                           drugs.

                   •	      Place special emphasis on ensuring localities develop actionable
                           vaccine and antiviral drug distribution and dispensing plans.
                           Specifically, plans should identify the organizations or individuals
                           responsible for carrying out specific actions and the sources that
                           would be necessary to staff distribution and dispensing positions
                           and should be supported by valid, detailed formal agreements with
                           partnering agencies.
                   Ensure that localities consistently create both After Action Reports and
                   Improvement Plans to enhance their preparedness to distribute and
                   dispense vaccines and antiviral drugs during an influenza pandemic
                   Exercises are an important aspect of stregthening preparedness.
                   Therefore, localities should consistently document their distribution and
                   dispensing exercises with After Action Reports, develop Improvement
                   Plans, and test the proposed solutions to improve their pandemic
                   influenza plans. CDC could also consider providing additional guidance
                   or technical assistance to States and localities to ensure that they meet
                   Homeland Security Exercise and Evaluation Program requirements.
                   Facilitate the sharing of pandemic influenza planning and response
                   information and emerging promising practices
                   CDC should continue to develop strategies to facilitate collaboration and
                   information sharing about existing pandemic influenza planning
                   practices and encourage the use of existing resources. For example,
                   CDC should encourage States and localities to use the Lessons Learned
                   Information Sharing Web site to share not only After Action Reports but
                   also planning documents and promising practices. These strategies
                   could also assist States and localities in collaborating with community
                   partners in pandemic influenza planning and exercising.




 OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                   DISPENSING
                                                                                                                                                31
R   E C O        M M E N D A T                          I O N               S            





                       AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                       RESPONSE
                       CDC agreed with two of our three recommendations. Specifically, in
                       response to the second recommendation, CDC agreed to work with States
                       to encourage localities to develop After Action Reports and Improvement
                       Plans that comply with the Homeland Security Exercise and Evaluation
                       Program. In response to the third recommendation, CDC agreed that
                       States and localities should use the Lessons Learned Information Sharing
                       Web site to facilitate the sharing of planning resources. CDC is using this
                       Web site to create a national public health exercise calendar and
                       encourage the dissemination of national trends and promising practices.

                       CDC did not indicate whether it agreed with the first recommendation, but
                       noted that it plans to use some of OIG’s suggested actions to address this
                       recommendation. For example, CDC agreed that local vaccine and
                       antiviral drug distribution and dispensing preparedness can and should be
                       improved. Additionally, CDC acknowledged the need for States to
                       prioritize some of the planning areas OIG identified, which include
                       receiving and storing vaccines and antiviral drugs and identifying
                       dispensing sites and staffing requirements. Finally, CDC agreed that
                       localities need to develop actionable vaccine and antiviral drug
                       distribution and dispensing plans.

                       CDC also identified other ways in which it continues to work with States
                       and localities to improve their preparedness. Specifically, CDC released a
                       gap analysis tool to States in mid-August 2009, which it will use to provide
                       targeted technical assistance to States as they prepare to respond to the
                       H1N1 pandemic. Additionally, CDC acknowledged that the funding
                       provided through the June 2009 Supplemental Appropriations Act to help
                       States and localities prepare for and respond to the H1N1 pandemic will
                       enable them to improve preparedness and address OIG’s
                       recommendations.

                       CDC also provided other general comments on our draft report.
                       Specifically, CDC noted that the lack of site-specific information in local
                       and State plans reported by OIG may be because States and localities
                       considered this to be sensitive information and intentionally excluded it.
                       Additionally, CDC noted that there are distinct differences in vaccine and
                       antiviral drug storing, distributing and dispensing requirements and in
                       the division of State and local responsibilities for these functions.


    OEI-04-08-00260	   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                       DISPENSING
                                                                                                                                                    32
R   E C O        M M E N D A T                          I O N               S



                       Therefore, CDC encouraged OIG to present the vaccine and antiviral drug
                       results separately and disaggregate the data by State and local functions.

                       OIG acknowledges that the delivery systems for vaccines and antiviral
                       drugs differ and we clarified these differences in the Background. We
                       present combined results for vaccines and antiviral drugs because we did
                       not find substantial differences in the availability of documentation
                       provided for each delivery system; see the Methodology for a more
                       thorough explanation. Additionally, OIG requested and reviewed all
                       available site-specific information, including that which may not have
                       been incorporated in planning documents for security reasons. Finally, we
                       combined State and local results for shared preparedness items because
                       both the State and locality must be able to execute these items for the
                       distribution and dispensing system to operate as intended.

                       We ask that in its final management decision, CDC more clearly indicate
                       whether it agrees with our first recommendation. For the full text of
                       CDC’s comments, see Appendix D.




    OEI-04-08-00260	   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                       DISPENSING
                                                                                                                                                    33
    Δ            A P P E N D I X ~ A



Selected States and Localities

State                                                                                  Locality

Hawaii                                                                                    Hilo

                                                                                      Honolulu

Massachusetts                                                                           Boston

                                                                                     Springfield

Nevada                                                                               Las Vegas

                                                                                         Reno

Tennessee                                                                             Knoxville

                                                                                      Memphis

Washington                                                                              Seattle

                                                                                      Spokane
Source: Office of Inspector General selection of states and localities for the evaluation of local
pandemic influenza preparedness: vaccine and antiviral drug distribution and dispensing, 2008.




          OEI-04-08-00260             L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                      DISPENSING
                                                                                                                                                                   34
    A P
    Δ           A EP NP DE I N X D~ I B X ~ B
                P




Table B-1: Number of Selected Localities With Planning and Supporting Documents for the
Receiving & Staging Component, by Preparedness Item

                                                                                                                                                      Number of Localities With
Receiving & Staging Item (n=15)                                                                                                                       Planning and Supporting
                                                                                                                                                         Documentation for
                                                                                                                                                      Vaccines and/or Antiviral
                                                                                                                                                               Drugs
     1.    Estimated the quantities of vaccines and antiviral drugs that State/locality would need.                                                                  2

     2.    Determined the quantities of antiviral drugs currently available in the State/locality.                                                                  10

Identifying Receiving and Staging Locations
     3.    Identified a receiving and staging location for assets coming from Federal agencies.                                                                      5

     4.    Identified an initial State/local stockpile.                                                                                                              2

     5.    Identified alternate receiving and staging locations.                                                                                                     2

Receiving and Staging Procedures
     6.    Developed procedures for receiving vaccines and antiviral drugs at receiving and staging location.                                                        5

     7.    Developed procedures for requesting additional supplies of antiviral drugs.                                                                               4

     8.    Developed transfer-of-authority procedures for distributing vaccines and antiviral drugs.                                                                 5

     9.    Is prepared to give the names and locations of all end-point recipients (i.e., vaccine clinics and other                                                  7
           dispensing locations) to the distributor.

     10. Updates end-point recipient contact information at least annually.                                                                                          1

Staffing Positions at Receiving and Staging Locations
     11. Identified where receiving and staging staff will come from (i.e., agency, affiliation).                                                                    5

     12. Estimated the number of personnel/volunteers needed for receiving and staging.                                                                              4

     13. Factored absenteeism into estimated number of receiving and staging staff.                                                                                  0

     14. Identified number of personnel each source of staff would provide.                                                                                          2

Training Receiving and Staging Staff
     15. Developed training materials for receiving and staging staff.                                                                                               8

   Total Number and Percentage of Items Addressed (out of 150 items)                                                                                              62 (41%)

Source: Office of Inspector General (OIG) analysis of 2008 data from selected States and localities, 2009.




          OEI-04-08-00260	           L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                     DISPENSING
                                                                                                                                                                    35
Table B-2: Number of Selected Localities With Planning and Supporting Documents for the
Dispensing Component, by Preparedness Item (continued on next page)

                                                                                                                                                   Number of Localities With
Dispensing Item (n=23)                                                                                                                             Planning and Supporting
                                                                                                                                                      Documentation for
                                                                                                                                                          Vaccines*
Identifying Dispensing Sites
     1.    Identified vaccine-dispensing sites.                                                                                                                3

     2.    Identified alternate vaccine-dispensing sites.                                                                                                      2

Dispensing Procedures
     3.    Identified the officials who are authorized to receive vaccines at dispensing sites.                                                                3

     4.    Planned to provide identification (i.e., badges) to dispensing staff upon entrance at dispensing sites.                                             5

     5.    Planned to keep symptomatic and nonsymptomatic people separated at dispensing sites.                                                                7

     6.    Estimated patient throughput** at dispensing sites.                                                                                                 1

     7.    Determined time to vaccinate entire population based on throughput estimate.                                                                        1

     8.    Planned to collect data regarding number of doses received; date of dispensing; age, priority group,                                                0
           State, county, and ZIP Code of recipient.

     9.    Documented a data entry system for dispensing sites.                                                                                                0

     10. Ensures that data entry keeps pace with throughput.                                                                                                   0

     11. Developed a process to dispense vaccines to individuals that have trouble communicating.                                                              5

Staffing Positions at Dispensing Sites
     12. Identified where dispensing staff will come from (i.e., agency, affiliation).                                                                         3

     13. Estimated the number of personnel/volunteers needed for dispensing.                                                                                   7

     14. Factored absenteeism into estimated number of dispensing staff.                                                                                       0

     15. Identified number of personnel each source of staff would provide.                                                                                    0

     16. Has contingency plans for volunteer absenteeism.                                                                                                      0

     17. Has a system to maintain contact information for dispensing staff.                                                                                    6

     18. Ensures that contact information for dispensing staff is up-to-date (i.e., updated at least every                                                     4
           6 months).




          OEI-04-08-00260	        L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                  DISPENSING
                                                                                                                                                               36
     A     P P       E    N    D    I      X      ~ B



Table B-2: Number of Selected Localities With Planning and Supporting Documents for the
Dispensing Component, by Preparedness Item (continued)
                                                                                                                                                         Number of Localities With
                                                                                                                                                         Planning and Supporting
Dispensing Item (n=23)                                                                                                                                      Documentation for
                                                                                                                                                                Vaccines*
Staffing Dispensing Sites
     19. Has a system to ensure that dispensing staff is qualified to administer vaccines.                                                                              4

     20. Ensures that dispensing staff’s qualifications are up-to-date (i.e., updated at least every 6 months).                                                         4

     21. Has a process to allow nonlicensed personnel/volunteers to dispense vaccines, when and if needed.                                                              4

     22. Has a process to allow health care workers from other jurisdictions to dispense vaccines, when and if                                                          1
           needed.

     Training Dispensing Staff
     23. Has training materials for dispensing staff.                                                                                                                   8

    Total Number and Percentage of Items Addressed (out of 230 items)                                                                                                68 (30%)

Source: OIG analysis of 2008 data from selected States and localities, 2009. 

*Generally, localities planned to dispense antiviral drugs only to sick individuals seeking treatment at hospitals rather than provide them as part of a mass 

dispensing scenario to prevent illness. Therefore, we did not include antiviral drug dispensing in our review of documentation for the Dispensing component. 

**Throughput generally refers to the number of people that can be vaccinated in a given amount of time. 





         OEI-04-08-00260	               L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                        DISPENSING
                                                                                                                                                                       37
     A    P    P E       N D       I X         ~     B




Table B-3: Number of Selected Localities With Planning and Supporting Documents for the
Tracking Component, by Preparedness Item
                                                                                                                                                      Number of Localities With
                                                                                                                                                      Planning and Supporting
Tracking Item (n=6)                                                                                                                                      Documentation for
                                                                                                                                                       Vaccines and Antiviral
                                                                                                                                                               Drugs
     1.    Has system to track antiviral drugs at the State or local stockpile.                                                                                      1

     2.    Has system to track antiviral drugs during transport from the State or local stockpile.                                                                   1

     3.    Has system to track vaccines and antiviral drugs at the receiving and staging location.                                                                   3

     4.    Has system to track vaccines and antiviral drugs during transport from the receiving and staging                                                          5
           location.

     5.    Has system to track vaccines and patients at the dispensing sites.                                                                                        4

     6.    Has tracking system that includes variables for doses dispensed; lot number; date of dispensing; age                                                      0
           and priority group of recipient.

   Total Number and Percentage of Items Addressed (out of 60 items)                                                                                               14 (23%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




          OEI-04-08-00260	           L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                     DISPENSING
                                                                                                                                                                    38
  A        P     P E N D               I X ~         B


Table B-4: Number of Selected Localities With Planning and Supporting Documents for the
Vulnerable Populations Component, by Preparedness Item
                                                                                                                                                          Number of Localities With
Vulnerable Populations Item (n=3)
                                                                                                                                                          Planning and Supporting
                                                                                                                                                             Documentation for
                                                                                                                                                           Vaccines and Antiviral
                                                                                                                                                                   Drugs
      1.        Defined vulnerable populations.                                                                                                                         4

      2.        Estimated the size of each vulnerable population.                                                                                                       0

      3.        Developed plan to dispense to vulnerable populations.                                                                                                   1

   Total Number and Percentage of Items Addressed (out of 30 items)                                                                                                   5 (17%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




Table B-5: Number of Selected Localities With Planning and Supporting Documents for the
Priority Groups Component, by Preparedness Item
                                                                                                                                                          Number of Localities With
                                                                                                                                                          Planning and Supporting
Priority Groups Item (n=5)                                                                                                                                   Documentation for
                                                                                                                                                           Vaccines and Antiviral
                                                                                                                                                                   Drugs
      1.        Defined priority groups.                                                                                                                                1

      2.        Estimated the size of each priority group.                                                                                                              0

      3.        Developed plan to dispense to priority groups.                                                                                                          3

      4.        Developed protocols to screen and identify persons in priority groups at dispensing sites.                                                              2

      5.        Developed method to determine when it is appropriate to provide vaccines and antiviral drugs to the                                                     0
                next priority group.

   Total Number and Percentage of Items Addressed (out of 50 items)                                                                                                   6 (12%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




               OEI-04-08-00260	          L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                         DISPENSING
                                                                                                                                                                        39
     A    P    P E N D             I X ~             B




Table B-6: Number of Selected Localities With Planning and Supporting Documents for the
Security Component, by Preparedness Item
                                                                                                                                                      Number of Localities With
                                                                                                                                                      Planning and Supporting
Security Item (n=15)                                                                                                                                     Documentation for
                                                                                                                                                       Vaccines and Antiviral
                                                                                                                                                               Drugs
Security Procedures
     1.    Has plan to ensure security for the antiviral drugs at State or local stockpile.                                                                          0

     2.    Has plan to ensure security for the antiviral drugs during transport from State or local stockpile.                                                       0

     3.    Has plan to ensure security for the vaccines and antiviral drugs at the receiving and staging location.                                                   0

     4.    Has plan to ensure security for the vaccines and antiviral drugs during transport from the receiving                                                      0
           and staging location.

     5.    Has plan to ensure security for the vaccines at the dispensing sites.                                                                                     0

     6.    Has a contingency plan to provide security for the vaccines and antiviral drugs.                                                                          0

Staffing Security Positions
     7.    Identified where security staff will come from (i.e., agency, affiliation).                                                                               0

     8.    Estimated number of personnel/volunteers needed to ensure security for the antiviral drugs at State                                                       0
           or local stockpile.

     9.    Estimated number of personnel/volunteers needed to ensure security for the antiviral drugs during                                                         4
           transport from State or local stockpile.

     10. Estimated number of personnel/volunteers needed to ensure security for the vaccines and antiviral                                                           3
           drugs at receiving and staging location.

     11. Estimated number of personnel/volunteers needed to ensure security for the vaccines and antiviral                                                           2
           drugs during transport from receiving and staging location.

     12. Estimated number of personnel needed to ensure security for vaccines at dispensing sites.                                                                   4

     13. Factored absenteeism into estimated number of security staff.                                                                                               0

     14. Identified number of personnel each source of staff would provide.                                                                                          0

Training Security Staff
     15. Has training materials for security staff.                                                                                                                  3

   Total Number and Percentage of Items Addressed (out of 150 items)                                                                                              16 (11%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




          OEI-04-08-00260	           L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                     DISPENSING
                                                                                                                                                                    40
  A        P     P E N D            I X ~           B


Table B-7: Number of Selected Localities With Planning and Supporting Documents for the
Storage Component, by Preparedness Item
                                                                                                                                                         Number of Localities With
                                                                                                                                                         Planning and Supporting
Storage Item (n=13)                                                                                                                                         Documentation for
                                                                                                                                                          Vaccines and Antiviral
                                                                                                                                                                  Drugs
Storage Procedures
      1.        Has plan to ensure proper storage conditions for the antiviral drugs at the State or local stockpile.                                                  0

      2.        Has plan to ensure proper storage conditions for the antiviral drugs during transport from the State or                                                0
                local stockpile.

      3.        Has plan to ensure proper storage conditions for the vaccines and antiviral drugs at the receiving and                                                 0
                staging location.

      4.        Has plan to ensure proper storage conditions for the vaccines and antiviral drugs during transport                                                     0
                from the receiving and staging location.

      5.        Has plan to ensure proper storage conditions for the vaccines at the dispensing sites.                                                                 0

      6.        Has contingency plans for the vaccines and antiviral drugs in adverse storage conditions.                                                              0

      7.        Ensures that antiviral drugs in State/local stockpiles have not expired.                                                                               7

Staffing Storage Positions
      8.        Designated responsibility for ensuring proper storage conditions for the antiviral drugs at the State or                                               0
                local stockpile.

      9.        Designated responsibility for ensuring proper storage conditions for the antiviral drugs during                                                        0
                transport from the State or local stockpile.

      10. Designated responsibility for ensuring proper storage conditions for the vaccines and antiviral drugs                                                        0
                at the receiving and staging location.

      11. Designated responsibility for ensuring proper storage conditions for the vaccines and antiviral drugs                                                        0
                during transport from the receiving and staging location.

      12. Designated responsibility for ensuring proper storage conditions for the vaccines at the dispensing                                                          2
                sites.

Training Staff Responsible for Storage
      13. Has training materials for staff responsible for storage.                                                                                                    2

   Total Number and Percentage of Items Addressed (out of 130 items)                                                                                                 11 (8%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




               OEI-04-08-00260	         L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                        DISPENSING
                                                                                                                                                                       41
     A    P    P E N D             I X ~             B




Table B-8: Number of Selected Localities With Planning and Supporting Documents for the
Transportation Component, by Preparedness Item
                                                                                                                                                      Number of Localities With
                                                                                                                                                      Planning and Supporting
Transportation Item (n=9)                                                                                                                                Documentation for
                                                                                                                                                       Vaccines and Antiviral
                                                                                                                                                               Drugs
Transportation Procedures
     1.    Has plan to transport the antiviral drugs from the State or local stockpile.                                                                             0

     2.    Has plan to transport the vaccines and antiviral drugs from the receiving and staging location.                                                          0

     3.    Has contingency plans to transport the vaccines and antiviral drugs.                                                                                     0

Staffing Transportation Positions
     4.    Identified where transportation staff will come from (i.e., agency, affiliation).                                                                        2

     5.    Estimated number of personnel/volunteers needed to transport the antiviral drugs from the State or                                                       0
           local stockpile.

     6.    Estimated number of personnel/volunteers needed to transport the antiviral drugs from the receiving                                                      0
           and staging location.

     7.    Factored absenteeism into estimated number of transportation staff.                                                                                      0

     8.    Identified number of personnel each source of staff would provide.                                                                                       0

Training Transportation Staff
     9.    Has training materials for transportation staff.                                                                                                         1

   Total Number and Percentage of Items Addressed (out of 90)                                                                                                     3 (3%)

Source: OIG analysis of 2008 data from selected States and localities, 2009.




          OEI-04-08-00260	           L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                     DISPENSING
                                                                                                                                                                   42
     Δ             A P P E N D I X ~ C




 Number of Selected Localities Collaborating With Each Type of Community Partner During
 Pandemic Influenza Vaccine and Antiviral Drug Distribution and Dispensing Planning and
 Exercising**
                                                                                        Number of Localities
                                                                                                                                          Number of Localities Collaborating
Community Partner**                                                                Collaborating With Partner
                                                                                                                                           With Partner During Exercising*
                                                                                            During Planning

1.    Educational institutions                                                                         10                                                  9

2.    Emergency management agencies                                                                    10                                                  7

3.    Hospitals                                                                                        10                                                  7

4.    State health departments                                                                          9                                                  7

5.    Law enforcement                                                                                   9                                                  8

6.    Fire departments                                                                                  9                                                  5

7.    Emergency medical services                                                                        9                                                  7

8.    Medical Reserve Corps                                                                             9                                                  7

9.    Medical community                                                                                 9                                                  8

10. Military installations                                                                              8                                                  4

11. Mental health/crisis professionals                                                                  8                                                  6

12. Private industry                                                                                    8                                                  6

13. Volunteer organizations                                                                             8                                                  3

14. Critical infrastructure/public works                                                                7                                                  4

15. Home health/visiting nurses                                                                         7                                                  2

16. Organizations serving at-risk populations                                                           7                                                  3

17. Metropolitan Medical Response System                                                                5                                                  6

18. Departments of Correction                                                                           4                                                  3

19. Professional associations                                                                           4                                                  4

20. Department of Homeland Security                                                                     3                                                  0

21. Department of Transportation                                                                        3                                                  3

22. Regional health and human services liaisons                                                         3                                                  1

23. Community emergency response teams                                                                  3                                                  2

24. National Disaster Medical System                                                                    2                                                  1
Source: Office of Inspector General analysis of 2008 data from selected States and localities, 2009.
* One locality did not provide the types of partners it collaborated with during its exercises.
** In addition, three out of the four localities with tribal populations collaborated with tribal governments during planning. Two of three localities also
collaborated with tribal governments to exercise their plans; the fourth locality did not provide information about whether it collaborated with the tribal
governments to exercise the plan.
           OEI-04-08-00260              L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                                        DISPENSING
                                                                                                                                                                     43
..     A P PEN D                            x       D




                            AGE N C Y                        COMMENTS

         DEPARTMENT OF HEALTH &. HUMAN SERVICES                                          Public Health Service


                                                                                         Centers fOf Disease Control
                                                                                            and Preventíon (CDC)
                                                                                         Atlanta GA 30333


                                                                                              AUG 2 5 20




        TO: Daniel R. Levinson, Inspector General
                         Department of   Health and Human Services


        FROM: Thomas R. Frieden, M.D., M.P.H., Director
                         Centers for Disease Control and Prevention


        SUBJECT: Office of Inspector        Gene.rl's Draft Report: "Local Pandemic InfluenzaPreparcdness:
                         Vaccine and Aiitiviral Drug Distribution and Dispensing,"
                         OEI-04-08-00260


        The Centers for Disease Control and Pteventicl)(CDC) appreciates. the opportunity to review and
        coiiment on the Office of Inspector General's (OlCf) draf'report, "Local Pandemic Influenza
        Prepardness: Vaccine andAntiviral Drug Distribution and Dispensing." Thank you tpr your
        review ofthis important and timely issue.

        The objectives of the review were to determine the extent to which the selected localities I)
        addressed in their planning documeits the vaccine atid antiviml drng distribution and dispensing
        components and preparedness items OlG identifíed based on Department of
                                                                                              Health and Human
        Services' (HHS) pandemic influenza guidance; 2) conducted exercises related to vaccine.
                                                                                                           and
        antiviral drug distribution and dispensing and documented these          exercises with after-action
        reports and improvement plans; and 3) collaborated with community pi:nersto develop and
        exercisc their plans to distribute and dispense vaccines and antiviral drugs during an influenza
        pandemic. The OlG completed their data collection in September 2008.

        As stated in the draft report, this evaluation focuses on the extent to which i 0 selected localities
        in Hawaii, Massachusetts, Nevada, Tennessee, and Washington have prepared to distribute and
        dispense vaccines and antiviral drugs during an influenza pandemic.

        The report's findings provide important information regarding the readiness of these selected
        localitics to respond to an influenza pandemic. CDC is conducting a gap analysis of state
        pandemic preparedness and response related to the ClUTcnt novel HINI influenza outbreak,
        which should yield valuable infonnatin about some of    these issues and should help to prioritize
        local eO'orts.




OEI.04.0Ø.00260            LOCAL PANDEMIC INFLUENZA PREPAREDNESS: VACCINE AND ANTIVIRAL DRUG DISTRIBUTION AND
                           DISPENSING
                                                                                                                       44
A P PEN D                   x         D




         Local I'lannÌne Important to Pandemic Inflnenza Response

         Thank you for drawing attention to these gaps. CDC is working hard to address local gaps in
         pandemic planning. CDC agrees that while staes, overall, are doing well with antiviral dnig
         distrbution and development of vaccination plans, local pandemÌe preparedness can and should
         be improved. WhiJc development ofloca,l plans and capabilities is the responsibìlty of the states,
         CDC pl'vides resources and giiidance to the states to enhance their ability to improve
         preparedness at the local leveL.

         Recognizing the critical importance of state and local pandemicHINl response, Congress
         appropriated fmiding in June 2009 through the 2009 Supplemeiial Appropriations Act to prepare
         for and reSpond to thc novel IlINl influenza, outbreak in the United States. To date, CDC has
         provided $508 million through    the Public Health Emergency Response (FIlER) grantto upgrade
         state and local pandemic influenza preparedness and responsc capacity, including vaccination
         and antiviral drug distribution and dispensing.

         While the majority ohM PHER funds are disttibuted to            state health departments, CDC guidance
         in the PJ-lER funding Oppoiiunily announcement states that CDC expccts a significant portion of
         the Pl-lER funds to be distributed to and utilized at thc locallevcl for activities related to antiviral
         distribution/dispensing, community mitigation, and mass vaccination. The gUidance also strongly
         encoura,ges states to work closely with local and tribal entities and governments to assure access
         to the funding necessary to achieve preparedness at all lcvels ofgovernment.

         In addition, recipients ofPHER funding must conduct a pandemic preparedness gap assessmcnt
         to identify gaps that are most critical or of highest priority for their jurisdictions, develop work
         plans and program goals that address the prioritized gaps, and build detailed budgets that reflect
         how funding will be directcd to address gaps and achieve the program goals. CDC expccts states
         to direct appropriate funds to their localities to address local pandemic preparedness gaps that
         thcy identify in these gap assessments. Furthermore, PHER awardees are required to have
         comprehensive, up-to-date plans in place no later than September i 5,2009, for a potential mass
         vaccination campaign. These plans should incorporate local activities.

         Specific Recommendations fInd CDC's Response

         DIG Recommendation: Improve local pandemic influenza vaccine and antiviral drug
         distribution and dispensing preparedness. CDC, in coordination with states, could improve
         pandemic influenza vaccinc and antiviral drug distribution.and dispensing preparedness at the
         local level by taking the following actions:
                 Determine whyloealitiesappcar to be in the early stages of planning for pandemic
                 influneza vaccine and antiviral drug distribution and dispensiiig, ånd provide assistance to
                 improve their preparedness.
             . Prioritize the planing areas where states sllOuld focus any carryover or future pandemic
                   in1hienza funding to quickly improve local preparedness to distribute and dispense
                   vaccines and antiviral drugs.
                   Place special emphasis on ensuring localities develop actionable vaccine and antiviral
                   drug distribution and dispensing plans. Specifcally, plans should identify the


                                                                                                                2




 OEI.04-08.00260           LOCAL PANDEMIC INFLUENZA PREPAREDNESS: VACCINE AND ANllVIRAL DRUG DISTRIBUllON AND
                           DISPENSING
                                                                                                                    45
A   P     P E N D         I X ~         D            





        OEI-04-08-00260     L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                            DISPENSING
                                                                                                                                                         46
A   P     P E N D         I X ~         D            





        OEI-04-08-00260     L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                            DISPENSING
                                                                                                                                                         47
A P PEN 0                         x         D




            Other Comments

            The oro report findings regarding the identification of   receiving and staging locations references
            the lack of site.specífic infomiation for receiving and staging sites in local and state plans. As a
            point of clarification, locations and addresses of such facilities are considered sensitive
            information, and in many states they are not included in   plans and documentation bee(iuse their
            plans are subject to state open records laws and public release.

            There are distinct differences between the requirements for storing, distributing, and dispensing
            antiviral diugs and vaccines, and it is important to not confuse the two by combining them in the
            mamier that was undertaken in this report. We encourage oro to make these distinctions clear in
            the findings section of the report to ensure readers fully understand them.

                    Antiviral drugs are available in state caches and come from the federally imiintained
                    Strategic National Stockpile (SNS). SNS.stored antiviral drugs are distributed to one
                        location designated by the state. The state can further distríbnte al1tivinil drugs in
                    nonrefTigerated vehicles to their localities for dispensing. Antiviral drugs can be stored
                    centrally or at the receiving locations at room temperatnre. Antiviral drugs are dispensed
                    at medical facilities, such as hospitals, clinics, and alternate care facilities, forthc purpose
                    of treating symptomatic patients.

                        Vaccine is delivered by the manufacturer to a central state location 01" multiplepmvide1"
                    sites thronghoiit the state. Cold chainmanagement is a fàctor for distribiition and storage.
                    Vaccine is targeted to priority populations and to the general public for prevention of

                    inOuenza. Vaccine can be administered in various locations, such as clinics, schools, or
                    malls,  as designated by the localities.

            CDC strongly encourages the oro to break out in the data tables ili the appendix not only the
            data in teiins of antiviral drugs and vaccine but also by state and local rnles and fnnctions. CDC
            is concemed that aggregating disparate state and local roles and    functions could confnse readers
            about whether the activìty is a state or a local responsibilty. CDC recommends thisbc done
            throughout the report, including a separate oro analysis ofeaeh system to help readers more
            easily understand this distinction.

            We appreciate your consideration of   the comments contained in tbis memo as you develop the
            final report. We are happy to discuss any of these comments wìth you. Please direct any
            qiiestions regarding these comments to Mr. Shauii Ratliff        by telephone at (404) 639-2809 or by
            e-mail at iggaoc&cde.gov.

                                                                Sincerely,

                                                                /S/
                                                                Thomas R. Frieden, MD., M,P.H.
                                                                Director




                                                                                                                    5




 o E I. 04.0 8.0 0260            LOCAL PANDEMIC INFLUENZA PREPAREDNESS: VACCINE AND ANTIVIRAL DRUG DISTRIBUTION AND
                                 DISPENSING
                                                                                                                        48
Δ      A C K N O W L E D G M E N T S

                      This report was prepared under the direction of Dwayne Grant,
                      Regional Inspector General for Evaluation and Inspections in the
                      Atlanta regional office.

                      Jaime Durley and Mina Zadeh served as team leaders for this study.
                      Erica Bushong served as the Lead Analyst. Other principal Office of
                      Evaluation and Inspections staff from the Atlanta regional office who
                      contributed include Leila Samy; central office staff who contributed
                      include Talisha Searcy and Kevin Farber.




    OEI-04-08-00260   L O C A L PA N D E M I C I N F L U E N Z A P R E PA R E D N E S S : VA C C I N E   AND   ANTIVIRAL DRUG DISTRIBUTION   AND
                      DISPENSING
                                                                                                                                                   49
